                                                       U.S. Department of Justice
                                                       United States Attorney
                                                       Eastern District of Pennsylvania
                                                       615 Chestnut Street
                                                       Suite 1250
                                                       Philadelphia, Pennsylvania 19106-4476
                                                       (215) 861-8200


                                                       January 23, 2013

 FEDERAL CHARGES ALLEGE CAPTORS HELD DISABLED ADULTS IN SUBHUMAN
            CONDITIONS TO CARRY OUT SOCIAL~SECURITY FRAUD
        First Hate Crimes Case Of Its Kind In The Country Also Charges Murder

        PHILADELPHIA- Linda Weston, her daughter and three co-defendants are charged in a 196-
count indictment 1, unsealed today, with racketeering conspiracy, murder in aid of racketeering, hate
crimes, sex trafficking, kidnapping, forced human labor, theft, fraud, and other violent crimes. The
indictment alleges that Weston and her associates carried out a racketeering enterprise that targeted
mentally disabled victims and as part of a scheme to steal disability payments from the victims and
the Social Security system. As part of the scheme, Weston persuaded each victim to make her the
designated recipient of their Social Security disability payments in exchange for the promise of a
comfortable place to live. Once appointed as the designated recipient of disability payments,
Weston, aided by the co-defendants, subjected the victims to subhuman conditions of captivity. The
defendants beat the victims, kept them captive in locked closets, basements and attics, deprived them
of adequate food and medical care, and moved them between Philadelphia, Texas, Virginia, and
Florida in order to further the scheme and evade law enforcement. According to the indictment,
some of the victims endured this abuse for years, until October 15,2011, when Philadelphia Police
officers rescued them from the sub-basement of an apartment building in the city's Tacony section.
The enterprise allegedly victimized six disabled adults and four children.

       Today's indictment was announced by United States Attorney Zane David Memeger,
Assistant Attorney General for the Civil Rights Division Thomas E. Perez, FBI Acting Special
Agent-in-Charge John Brosnan, Special Agent-in-Charge Michael McGill with the Social Security
Administration's Office of Inspector General, and Philadelphia Police Commissioner Charles
Ramsey.

       Along with Weston and her daughter Jean Mcintosh, the indictment charges Weston's
paramour, Gregory Thomas, Sr., Eddie Wright, and Nicklaus Woodard. According to the
indictment, the defendants used isolation, intimidation, threats of violence and violence to control
the mentally disabled captives and each defendant had a role in the racketeering enterprise:

        •      Linda Weston was the leader and organizer of the enterprise that operated from at
               least as early as the Fall of 2001 through October of 2011. She enticed all of the
               mentally challenged adults into coming to live with the enterprise and controlled all
               aspects of their captivity.


'An Indictment is an accusation. A defendant is presumed innocent unless and until proven guilty.

                                                   1
       •      Jean Mcintosh was also a leader of the enterprise who acted as her mother's right
              hand woman. She assisted in confining, controlling, disciplining, housing, and
              transporting the mentally challenged captives.

       •      Gregory Thomas, Sr. assisted in obtaining, confining, controlling, housing, and
              transporting the mentally disabled captives. He installed locks on the doors and
              windows of every residence where the captives were kept to prevent them from
              escaping.

       •      Eddie Wright assisted in confining, controlling, housing, and transporting the
              mentally challenged captives.

       •      Nicklaus Woodard assisted in confining, controlling and disciplining the mentally
              challenged captives.

       The conduct of each defendant is set forth in the overt act section of the indictment and
generally describes criminal activity from the Fall of 2001 to October 15, 2011 when the
Philadelphia Police rescued the victims from the sub-basement of the apartment building. The
indictment charges that in confining the victims, the defendants practiced what is described as
"abusive control and confinement techniques" in which the defendants:

                      a.      confined the disabled individuals to locked basements, rooms,
                              closets, attics, and apartments;
                      b.      sedated the disabled individuals by putting drugs in the food and
                              drink served to them by Weston and others, at Weston's direction;
                      c.      subdued the disabled victims by serving them a low calorie, high
                              starch diet consisting exclusively of Ramen noodles, beans and stew
                              and generally limited them to, at most, one meal a day;
                      d.      punished the disabled individuals by slapping, punching, kicking,
                              stabbing, burning and hitting them with closed hands, belts, sticks,
                              bats, and hammers or other objects, including the butt of a pistol,
                              when the individuals tried to escape, stole food, or otherwise
                              protested their confinement and treatment.

        The indictment alleges that Weston's use of these techniques caused the deaths of two of the
disabled victims. For example, in 2002, Weston met M.L. and lured her to come live with the
family. M.L. was forced to cook, clean, do wash, and babysit without compensation. M.L. was
beaten when she tried to escape or when she begged for food and was not provided with any medical
attention for her injuries. When Weston moved the enterprise to Virginia in 2008, M.L. died of
bacterial meningitis and starvation. Weston allegedly ordered other members of the household to
move M.L.' s body to a bedroom and stage the scene before calling law enforcement and the next day

                                                 2
the family left for Philadelphia. In addition, in April2005, Weston and Thomas allegedly targeted
victim D.S. who they saw standing on a street comer. They brought D.S. to the WF home at 2211
Glenview Avenue in Philadelphia. D.S. was kept in the basement with the other victims, fed a
substandard diet, and not allowed to use the bathroom. On June 26, 2005, D.S. was found dead in
the basement. Weston allegedly ordered other members ofthe household to move D.S.'s body to
a bedroom and stage an accidental overdose before calling law enforcement.

        The indictment also alleges that Weston forced two female captives to engaged in prostitution
while the enterprise operated in Killeen, Texas and West Palm Beach, Florida.

        The defendants are charged in four counts of violating the Matthew Shepard and James Byrd
Jr. Hate Crimes Prevention Act. The Shepard-Byrd Act criminalizes certain acts of physical violence
causing bodily injury motivated by any person's actual or perceived race, color, national origin,
religion, sexual orientation, gender, gender identity or disability.

        "The physically and mentally disabled are among the most vulnerable in our society. They
deserve to be treated with respect and compassion, not violence," said Memeger. "Linda Weston
and others, in fact, decided to prey on these victims specifically because of their physical and mental
challenges and they did so through violence, fear and intimidation for the purpose of stealing social
security payments that were meant for the victims' long-term care. "Shocking" does not begin to
describe the criminal allegations in this case where the victims were tied-up and confined like zoo
animals and treated like property akin to slaves. Hopefully, today's announcement of a 196-count
indictment will help begin the process of restoring the victims' faith in humanity."

        "The allegations in this indictment describe a scheme to physically abuse and subjugate
mentally disabled adults for purposes of de-humanizing them, stealing their money, and unlawfully
obtaining their labor," said AAG Perez. "The laws against violently assaulting individuals because
oftheir disabilities and those that prohibit human trafficking were designed to combat conduct aimed
at vulnerable members of society, such as the alleged victims in this case. The Department of
Justice, the Civil Rights Division, and our United States Attorney's Offices will vigorously enforce
these laws."

        "Today' s Indictment represents just one more step towards closure and healing, not only for
the victims of this heinous hate crime, but for the community as a whole," said Special Agent-in-
Charge John Brosnan. "The FBI, along with the United States Attorney's Office, the Philadelphia
Police Department and the Social Security Administration Office of Inspector General remain
committed to protecting each and every citizen's civil rights, and will aggressively investigate any
violation of those rights, bringing the perpetrators to justice."

        "The Office of the Inspector General investigates many cases involving the misuse of Social
Security benefits by representative payees, but thankfully, we've never seen a case involving this
level of cruelty and inhumanity to our most vulnerable beneficiaries," said Special Agent-in-Charge

                                                   3
Michael McGill. "We're pleased to see justice served, and grateful to the U.S. Attorney and our
investigative partners for their unflagging support in this investigation."

        If convicted of all charges, each of the defendants faces a statutory maximum sentence oflife
in prison with advisory guideline sentencing ranges that involve substantial terms of imprisonment.
Weston potentially faces the death penalty and also faces mandatory restitution of approximately
$212,000 and special assessments.

        The case was investigated by the Federal Bureau of Investigation, the Social Security
Administration Office of Inspector General, the Internal Revenue Service Criminal Investigation,
the Philadelphia Police Department, with assistance from the Bureau ofAlcohol, Tobacco, Firearms,
and Explosives, West Palm Beach Field Office. It is being prosecuted by Assistant United States
Attorneys Richard P. Barrett, Faithe Moore Taylor, and Department of Justice Civil Rights Division
Trial Attorney Betsy Biffl. The case was originally charged by the Philadelphia District Attorney's
Office.




 UNITED STATES ATTORNEY'S OFFICE                      Contact: PATTY HARTMAN
 EASTERN DISTRICT, PENNSYLVANIA                                Media Contact
 Suite 1250, 615 Chestnut Street                               215-861-8525
 Philadelphia, PA 19106


       COPIES OF NEWS MEMOS AND RELATED DOCUMENTS CAN ALSO BE FOUND AT
                            HTTP://www. justice. gov/usaolpae




                                                  4
                                               U.S. Department of Justice

                                               United States Attorney
                                               Eastern District of Pennsylvania
                                               615 Chestnut Street
                                               Suite 1250
                                               Philadelphia, Pennsylvania 19106-4476
                                               (215) 861-8200




                  INFORMATION REGARDING THE DEFENDANTS


     NAME                 ADDRESS                    AGE           STATUTORY MAXIMUM

     Linda Weston                                      52                          LIFE

  Jean Mcintosh          Philadelphia                  33                          LIFE

Gregory Thomas, Sr.       Philadelphia                 49                          LIFE

   Eddie Wright          Killeen, Texas                52                          LIFE

 Nicklaus Woodard     West Palm Beach, FL              26                          LIFE




UNITED STATES ATTORNEY'S OFFICE               Contact: PATTYHARTMAN
EASTERN DISTRICT, PENNSYLVANIA                         Media Contact
Suite 1250, 615 Chestnut Street                        215-861-8525
Philadelphia, PA 19106


     COPIES OF NEWS MEMOS AND RELATED DOCUMENTS CAN ALSO BE FOUND AT
                          HTTP:/Iwww.justice.gov/usao/pae




                                          1
                                                              DEFENDANT/CHARGES CHART

DEF.             18 usc 1962(d)     18 USC371    18USC        18USC           18 USC 1959 (a)(1)-         18 USC 1959 (a)               18 u.s.c.     18 USC 1959 (a)
                 Conspiracy to      Conspiracy   249(a)(2)    1201            Violent crime in aid of     (3) Violent crime in aid of   1584(a)       (1) murdlu in aid
NAME             participate in a    1 count     Hate crime   Kidnapping      racketeering (Iodnapping)   racl{eteering                 Involuntary   of racl{eteedng
                 ntcketeering                     4 counts     9 counts           7 counts                (conspiracy to assault with   servitude        2 counts
                 enterprise                                                                               dangerous weapon                1 count
                   1 ct                                                                                      6 counts

LINDA            1                  2            3,4,5,6      7, 8, 9, 16,    10,11,18,19,22,30,34        12,13,20,23,29,35             14            15,24
WESTON                                                        17, 21,
                                                              28,33,196



JEAN             1                  2            3,4,5,6      7, 8. 9, 16,    10, 11,18,19,22,30,34       12,13,20,35                   14
MCINTOSH                                                      17, 21, 28,
                                                              33,196



GREGORY          1                  2            3, 4, 5, 6   7, 8, 9, 16,    10,11,18,19,22,30,34        12,13,20,23,35                14
THOIV.IAS, SR.                                                17, 21, 28,
                                                              33


EDDIE WRIGHT     1                  2            3, 4.,5, 6   7, 8, 17, 21,   10,19,22,30,34              12,20,23,35
                                                              28,33


NICKLAUSR.       1                  2            3, 4,5, 6    7, 8, 17, 21,   10,22,30,34                 12,20,23,29,35
WOODARD                                                       28,33
    DEJF.      18 usc 1001   42 USC 1383 (a)     18 usc 1343   18 usc 1341   18 usc 1591, 1594   18 U.SC 1589 (a)         18 usc 924©                18 USC641
    NAME       false         (2) false           wire fraud    mail fraud    sex traffiddng      (:1.) forced human       (3) use of a firearm in    theft from gov't
               statements    statements to SSA    125 counts    18 COUnts      2 cou:m.ts        labor      1 COUlllllt   furtherance of a violent     6 COUIJ.tS
                 5 coumts      4 counts                                                                                   crime 4 counts

    LINJDA     44, 45, 46,   48,49,50,51         52            177           25,26               27                       31,32,36,37                38, 39, 40, 41, 42,
    WESTON     47,195                            THROUGH       THROUGH                                                                               43
                                                 176           194



    JEAN                                         52            177                               27                                                  43
    MCINTOSH                                     THROUGH       THROUGH
                                                 176           194



    GREGORY                                                                                      27
    THOMAS,
    Sr.




    EDDIE                                                                                        27
    WRIGHT




    NICKLAUS                                                                                     27                       31,32,36,37
    R.
    WOODARD

!



                                                               ----                                   --
